AFFIDAVIT OF SERVICE
No. 20-740
IN THE
SUPREME COURT OF THE UNITED STATES

JIM BOGNET, et al.,
vs.

Petitioners,

VERONICA DEGRAFFENREID, in her capacity
as Acting Secretary of the Commonwealth of
Pennsylvania;
WASHINGTON COUNTY BOARD OF ELECTIONS, et al.,
Respondents.

Counsel of Record for the
Respondents, Franklin County
Board of Elections and Perry
County Board of Elections:
Frank J. Lavery, Jr., Esquire
Pennsylvania Supreme Court I.D.:
42370
Lavery Law
225 Market Street, Suite 304
Harrisburg, PA 17308
(717) 233-6633
flavery@laverylaw.com

AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that on March 15, 2021, BRIEF OF RESPONDENT
FRANKLIN COUNTY BOARD OF ELECTIONS AND PERRY COUNTY
BOARD OF ELECTIONS
IN OPPOSITION TO PETITION FOR CERTIORARI in the above-captioned case
were served, as required by U.S. Supreme Court Rule 29.5(c), on the following:
DAVID H. THOMPSON
PETER A. PATTERSON
NICOLE J. MOSS
JOHN W. TIENKEN
NICHOLAS A. VARONE
COOPER & KIRK, PLLC
1523 New Hampshire Avenue, N.W.
Washington, D.C. 20036
Counsel for Petitioners

DONALD B. VERRILLI JR.
MUNGER, TOLLES & OLSON LLP
Suite 500E
601 Massachusetts Avenue, N.W.
Washington, DC 20001-5369
Counsel for Respondent Democratic
National Committee

MOLLY R. MUDD
SEAN A. MOTT
117 Baltimore
Street
Gettysburg, PA
17325
Counsel for Respondent Adams County
Board

ALLAN J. OPSITNICK
OPSITNICK & ASSOCIATES
564 Forbes Avenue, Suite
1301
Pittsburgh, PA 15219
(412) 391-3299
Counsel for Respondent Allegheny County
of Elections

MOLLY E.
MEACHAM
BABST CALLAND
Two Gateway Center, 6th
Floor
603 Stanwix Street
Pittsburgh, PA 15222
(412) 773-8721
Counsel for Respondent Boards of
Elections of Armstrong, Bedford, Blair,
Centre, Columbia, Dauphin, Fayette,
Huntingdon, Indiana, Lackawanna,
Lawrence, Montour, Northumberland,
Venango, and York Counties

GAREN
FEDELES
NATHAN A. MORGAN
810 Third Street
Beaver, PA 15009
(724) 770-4445
Counsel for Beaver County
Board of Elections
JOSEPH J. KHAN
BUCKS COUNTY LAW DEPARTMENT
55 East Court
Street
Doylestown, PA
18901
(215) 348-6464
Counsel for Respondent
Bucks County Board of Elections

CHRISTINE D. STEERE
DEASEY, MAHONEY & VALENTINI,
LTD.
103 Chesley Drive, Suite 100
Media, PA 19063
(610) 892-2732
Counsel for Respondent Berks County
Board of Elections

JOSEPH J.
KHAN
BUCKS COUNTY LAW
DEPARTMENT
55 East Court
Street
Doylestown, PA 18901
(215) 348-6464
Counsel for Respondent Bucks County
Board of Elections
WILLIAM GLEASON BARBIN
Cambria County Courthouse
200 South Center Street
Ebensburg, PA 15931
(814) 472-1607
Counsel for Respondent
Cambria County Board of Elections

CHRISTINE D. STEERE
DEASEY, MAHONEY & VALENTINI,
LTD.
103 Chesley Drive, Suite 100
Media, PA 19063
(610) 892-2732
Counsel for Respondent Berks County Board
of Elections

H. WILLIAM WHITE, III
PO Box 1208
Butler, PA 16003-1208
(724) 284-5381
Counsel for Respondent Butler County
Board of Elections

STEPHANIE L. FERA, ESQ.
CHRISTOPHER P. GABRIEL, ESQ.
CAFARDI FERGUSON
WYRICK WEIS GABRIEL
2605 Nicholson Road
Building II, Suite 2201
Sewickley, PA 15143
(412) 515-8900
Counsel for Respondent
Boards of Elections of Clarion and Tioga
Counties

EDWIN W. THOMPKINS, III
20 E. 5th St.
Emporium, PA 15834
(814) 486-1532
Counsel for Respondent Cameron County
Board of Elections

LARRY COPLOFF
COPLOFF, RYAN, WELCH & HOUSER
136 E. Water St.
Lock Haven, PA 17745
(570) 748-7771
Counsel for Respondent
Clinton County Board of Elections

NICOLE R. FORZATO
MICHELLE A. BERNARDO-RUDY
Suite 6702 West
313 W Market Street
Chester, PA 19380-0991
(610) 344-6195
Counsel for Respondent Chester County
Board of Elections

KEITH O. BRENNEMAN
LAW OFFICE OF KEITH 0.
BRENNEMAN, P.C.
44 West Main Street
Mechanicsburg, PA
17055
(717) 697-8528
Counsel for Respondent
Cumberland County Board of Elections

HEATHER BOZOVICH
LISA MARIE VARI & Assoc., P.C.
114 1/2 S. Second St.
Clearfield, PA 16830
(614) 290-0587
Counsel for Respondent
Clearfield County Board of Elections

THOMAS G. WAGNER
ELK COUNTY SOLICITOR
MEYER, WAGNER, BROWN & KRAUS
115 Lafayette St.
St. Marys, PA 15857
(814) 781-3445
Counsel for Respondent
Elk County Board of Elections

KEITH A. BUTTON
SHAFER LAW FIRM
890 Market St.
Meadville, PA 16335
(814) 724-4540
Counsel for Respondent
Crawford County Board of Elections

TIMOTHY R. BEVEVINO
SWANSON, BEVEVINO & SHARP, P.C.
311 Market Street
Warren, PA 16365
(814) 723-2080
Counsel for Respondent Forest County
Board of Elections

EDWARD D. ROGERS
DAVID S. FRYMAN, ESQ.
ELIZABETH V. WINGFIELD, ESQ.
BALLARD SPAHR LLP
1735 Market Street, 51st Floor
Philadelphia, PA 19103
(215) 864-8144
Counsel for Respondent Delaware County
Board of Elections

JAMES M. STEIN
DICK, STEIN, SCHEMEL, WINE & FREY,
LLP
13 West Main Street, Suite 210
Waynesboro, PA 17268
(717) 762-1160
Counsel for Respondent
Fulton County Board of Elections

THOMAS S. TALARICO
TALARICO & NIEBAUER
510 Cranberry Street Suite
301 Erie, PA 16507
(814) 459-4472
RICHARD W. PERHACS
Erie County Courthouse, Room
504 140 West Sixth St.
Erie, PA 16501
(814) 451-6344
Counsel for Respondent
Erie County Board of Elections

C.J. ZWICK
ZWICK & ZWICK LLP
171 Beaver Drive
P.O. Box 1127
DuBois, PA 15801
(814) 371-6400
Counsel for Respondent
Jefferson County Board of Elections

ANDREW W. NORFLEET
FRANK J. LAVERY, JR.
LAVERY LAW
225 Market Street, Suite 304
P.O. Box 1245
Harrisburg, PA
17108 (717) 2336633
Counsel for Respondent Boards of
Elections of Franklin and Perry
Counties

DAVID R. WARNER, JR.
BUZGON DAVIS LAW OFFICES
525 South Eighth Street
Lebanon, PA 17042
(717) 274 1421
Counsel for Respondent
Lebanon County Board of Elections

ROBERT EUGENE GRIMM
2698 Morgantown Road
Smithfield, PA 15478
(724) 569-2819
Counsel for Respondent
Greene County Board of Elections

JOSEPH MATTHIAS COSGROVE
SELINGO GUAGLIARDO LLC
345 Market Street
Kingston, PA 18704-0000
Counsel for Respondent
Luzerne County Board of Elections

CHRISTINA L. HAUSNER
150 N. Queen Street
Suite 714
Lancaster, PA 17603
(717) 735-1584
Counsel for Respondent
Lancaster County Board of Elections

ANTHONY V.
CLARKE THE
CLARKE FIRM
204 Bolivar Drive
Bradford, PA 16701
(814) 363-9990
Counsel for Respondent
McKean County Board of Elections

THOMAS M. CAFFREY
P.O. Box A
Coplay, PA 18037-0200
(610) 434-4418
SARAH MAE
MURRAY COUNTY
OF LEHIGH 17 S.
7th St.
Lehigh County Government
Center Allentown, PA 18101
(610) 782-3180
Counsel for Respondent
Lehigh County Board of Elections

STEPHENS. SNOOK
MIFFLIN COUNTY SOLICITOR
BMZLAW
20 South Wayne
St. Lewiston, PA
17044
(717) 363-0342
Counsel for Respondent
Miffiin County Board of Elections

JOSEPH D. SMITH
MCCORMICK LAW FIRM
835 West Fourth Street
P.O. Box577
Williamsport, PA
17701 (570) 3265131
Counsel for Respondent
Lycoming County Board of Elections

MAUREENE. CALDER
BRIAN O'NEILL
PHILLIPS
MONTGOMERY COUNTY SOLICITOR'S
OFFICE
One Montgomery Plaza, Suite 800
P.O. Box 311
Norristown, PA 19404
(610) 278-3033
Counsel for Respondent
Montgomery County Board of Elections

WILLIAM J. MADDEN
MERCER COUNTY SOLICITOR
165 Euclid Ave.
Sharon, PA 16146
(724) 342-1300
Counsel for Respondent
Mercer County Board of Elections

DIANA CORTES
CITY OF PHILADELPHIA LAW DEPT.
1515 Arch St., FL 17
Philadelphia, PA 19102
(215) 683-5003
Counsel for Respondent
Philadelphia County Board of Elections

JOHNB.DUNN
MONROE COUNTY
SOLICITOR MATERGIA &
DUNN
919 Main Street
Stroudsburg, PA 18360
(570) 421-7720
GERARD JOSEPH GEIGER
NEWMAN WILLIAMS
712 Monroe Street
Stroudsburg, PA 18360
(570) 235-2770
Counsel for Respondent
Carbon County Board of Elections,
Monroe County Board of Elections, Pike
County Board of Elections, Wayne County
Board of Elections, Schuylkill County
Board of Elections, Snyder County Board
of Elections

THOMAS R. SHAFFER
GLASSMIRE & SHAFFER LAW OFFICES
5 East Third Street
P.O. Box 509
Coudersport, PA 16915
(814) 274-7292
Counsel for Respondent
Potter County Board of Elections

BRIAN J. TAYLOR
KING, SPRY, HERMAN, FREUND &
FAUL
One West Broad St., Ste. 700
Bethlehem, PA 18018
(610) 332-0390
Counsel for Respondent
Northampton County Board of Elections

ROBERT SCHAUB
ROSENN JENKINS & GREENWALD LLP
15 South Franklin Street
Wilkes-Barre, PA 18711
(570) 826-5652
Counsel for Respondent
Susquehanna County Board of Elections

MICHAEL P. BARBERA
BARBERA, MELVIN, SVONAVEC &
SPERLAZZA LLP
146 West Main Street, P.O. Box 775
Somerset, PA 15501
(814) 443-4681
Counsel for Respondent
Somerset County Board of Elections

KENNETH R. LEVITZKY
LEVITZKY LAW FIRM
125 Churchill Street
P.O. Box 489
Dushore, PA 18614
(570) 928-8288
Counsel for Respondent
Sullivan County Board of Elections and
Wyoming County Board of Elections

NATHANIEL JUSTUS SCHMIDT
SCHMIDT LAW FIRM
315 Second Avenue, Suite 704
P. O. Box 746
Warren, PA 16365
(814) 723-8665
Counsel for Respondent
Warren County Board of Elections

PETER GEORGE FACEY
MCNERNEY, PAGE, VANDERLIN &
HALL
433 Market Street
Williamsport, PA 17701
(570) 326-3170
Counsel for Respondent
Union County Board of Elections

DONALD K. ZAGURSKIE
JOHNSTON & ZAGURSKIE, PC
117 Main Street
PO Box O
Mifflin, PA 17058
(717) 436-8044
Counsel for Respondent
Juniata County Board of Elections

ROBERT J. GRIMM
SWARTZ CAMPBELL
436 Seventh Avenue
Pittsburgh, PA 15219
(412) 560-3267
Counsel for Respondent
Washington County Board of Elections

JONATHAN FOSTER
BRADFORD COUNTY SOLICITOR
303 South Keystone Avenue Sayre,
PA 18840
(570) 888-1529
Counsel for Respondent
Bradford County Board of Elections

MELISSA GUIDDY
WESTMORELAND COUNTY SOLICITOR
2 N. Main Street, Ste. 103
Greensburg, PA 15601
(724) 830-3145
Counsel for Respondent
Westmoreland County Board of
Elections

The following email addresses have also been served electronically:
bdupuis@babstcalland.com
mmeacham@babstcalland.com
wwhite@co.butler.pa.us
nforzato@chesco.org
heather@bozovichlaw.com
rogerse@ballardspahr.com
wingfielde@ballardspahr.com
rperhacs@eriecountypa.gov
flavery@laverylaw.com
anorfleet@laverylaw.com
chausner@co.lancaster.pa.us
sarahmurray@lehighcounty.org
wjmpc@verizon.net
btaylor@kingspry.com
clawoff@hotmail.com
jdewald@mpvhlaw.com
solicitor@co.westmoreland.pa.us
Jonathan.Jr@fosterslawfirm.com
chobbs@co.schuylkill.pa.us
scommand@perkinscoie.com
unkwonta@perkinscoie.com
ggeiger@newmanwilliams.com
sfera@cfwwg.com lec@crwlaw.net
info@mwbklaw.com
dsslaw@dsslawyers.com
warner@buzgondavis.com
ljm@joycecarmody.com
ssnook@bmzlaw.com
Marcel.pratt@phila.gov
tomshaffer@verizon.net
fxoconnor@frontiernet.net
contact@theschmidtlawfirm.com
mcalder@montcopa.org
mpbarbera@barberalaw.com
wkay@waynecountypa.gov
lawyergrimm@hotmail.com
tcaffrey@rcn.com dsmith@mcclaw.com
ggeiger@newmanwilliams.com
cweed@kfblawoffice.com
krllaw@epix.net

dthompson@cooperkirk.co
trodgers@perkinscoie.com
justin@arlawpitt.com
aopsitnick@opsitnickslaw.com
nmorgan@beavercountypa.gov
mkestermont@co.cambria.pa.us
dam@gmlawoffices.com
cgabriel@cfwwg.com
k.brenneman@verizon.net
attorneys@sbglawoffice.com
cjz@zwick-law.com
rmb@joycecarmody.com
theclarkefirm@yahoo.com
Diana.cortes@phila.gov
skirkpatrick@attomeygEneral.gov
kneary@attomeygeneral.gov
jrickabaugh@tlgattomeys.com
mmudd@adamscounty.us
skeegan@babstcalland.com
csteere@dmvlawfirm.com
ewtompkinslaw@gmail.com
mbernardorudy@gmail.com
kbutton@shaferlaw.com
fryman@ballardspahr.com
ttalarico@nwpalawyers.com
melias@perkinscoie.com
celgart@perkinscoie.com
jshelly@perkinscoie.com
marco@arlawpitt.com
aszefi@alleghenycounty.us
gfedeles@beavercountypa.gov
jjkhan@buckscounty.org
rgrimm@swartzcampbell.com
regoli@regolilaw.com
jzmlawoffice@gmail.com

